             Office Of Inspector General




December 30, 2003

ANTHONY J. VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

MARY ANNE GIBBONS
VICE PRESIDENT, GENERAL COUNSEL

SUBJECT: Audit Report – Postal Service’s December 2000 Equal Employment
         Opportunity Settlement Policy (Report Number HM-AR-04-003)

This report presents the results of our review of the Postal Service’s December 2000
Equal Employment Opportunity Settlement Policy (Project Number 03YG046LH001).
This review was part of the work conducted during the self-initiated survey of Equal
Employment Opportunity monetary settlement agreements (Project Number
03YG046LH000). This is one in a series of reports developed from the survey, and is
intended to help protect the interests of the Postal Service by making recommendations
as soon as we identify issues.

                            Background and Prior Audit Coverage
In a prior Office of Inspector General (OIG) report entitled, Equal Employment
Opportunity Complaint Settlement Agreement (Report Number LB-AR-01-013, dated
December 21, 2000), the OIG recommended the Postal Service revise their policies
and procedures to require officers and executives1 to obtain higher-level2 approval for
proposed Equal Employment Opportunity settlements in instances where officers and
executives were personally charged with discrimination. In response to the OIG
recommendation, the Postal Service revised its policy in December 2000, requiring
officers and executives who were personally charged in a complaint to obtain
higher-level approval to settle such complaints for $25,000 or more. The revised policy
also favored reasonable settlement of appropriate Equal Employment Opportunity
disputes at the earliest possible opportunity. It also stated individuals representing the
Postal Service in mediation or settlement negotiations should normally be vested with

1
  The term “officers” as used in this report refers to Postal Service officials in grade level Postal Career Executive
Service II, which includes the postmaster general, deputy postmaster general, chief operating officer, general
counsel, chief postal inspector, and all senior vice presidents and vice presidents reporting to them. The term
“executives” refers to those officials in grade level Postal Career Executive Service I, which includes many, but not
all, managers at headquarters and in the field.
2
  The term “higher-level” approval as used in this report is approval given by an official who is a higher level than the
official against whom the allegation has been made.




    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Postal Service’s December 2000 Equal                                             HM-AR-04-003
 Employment Opportunity Settlement Policy


full authority to settle the dispute and with accountability for the terms of the settlement
agreement. The OIG concluded the revised policy met the intent of the
recommendation.

Upon further review of the policy during our survey of the Postal Service’s Equal
Employment Opportunity monetary settlement agreements, we found the policy
was inconsistent with Equal Employment Opportunity Commission Management
Directive 110, which indicated the official charged with discrimination cannot be the
individual with settlement authority in an alternative dispute resolution process,
regardless of the dollar amount.

In another OIG report entitled, Pacific Area’s Equal Employment Opportunity Monetary
Settlement Process (Report Number HM-AR-04-002, dated December 24, 2003), the
OIG concluded the Pacific Area was generally in compliance with the Postal Service’s
December 2000 Equal Employment Opportunity settlement policy. The OIG also found
the Pacific Area had its own settlement policy, dated March 2002, which was different
from the December 2000 policy as it related to the dollar threshold for settlement
approval. The OIG found the Pacific Area was in compliance with its own settlement
policy. No recommendations were made in the report and management agreed the
report was accurate with regard to settlement costs in Equal Employment Opportunity
cases settled by the Labor Relations personnel and the Law Department.

                        Objective, Scope, and Methodology
The objective of our audit was to determine if the Postal Service’s December 2000
policy requiring officers and executives to obtain higher-level approval in order to settle
Equal Employment Opportunity complaints against themselves for $25,000 or more,
was appropriate. To accomplish our objective, we reviewed the Postal Service’s
December 2000 settlement policy, Equal Employment Opportunity Commission
Management Directive 110, and the prior December 21, 2000, OIG report. We also
interviewed Postal Service officials at headquarters and obtained guidance from the
Equal Employment Opportunity Commission’s Office of Legal Counsel regarding the
Postal Service’s compliance with Equal Employment Opportunity Commission
Management Directive 110.

This review was conducted from February through December 2003, in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




                                              2
Postal Service’s December 2000 Equal                                                                  HM-AR-04-003
 Employment Opportunity Settlement Policy


                                               Audit Results

Equal Employment Opportunity Settlement Policy

The review disclosed the Postal Service’s December 2000 policy, requiring officers and
executives to obtain higher level approval in order to settle Equal Employment
Opportunity complaints against themselves for $25,000 or more, was not appropriate
because it was inconsistent with the Equal Employment Opportunity Commission’s
policies and procedures.

Equal Employment Opportunity Commission Management Directive 110 stated that in
an alternative dispute resolution process an agency “. . . will make accessible an
individual with settlement authority and that no responsible management official3 or
agency official directly involved in the case will serve as the person with settlement
authority.” The Equal Employment Opportunity Commission’s Office of Legal Counsel
told us in a June 2003 letter that this policy was established to “strip” responsible
management officials of settlement authority during alternative dispute resolution
because they were concerned officials would block otherwise appropriate settlements.
The legal counsel said the alternative dispute resolution program was a new
requirement and the Equal Employment Opportunity Commission wanted to do what
they could to ensure it would be successful. He also told us, however, it appeared
responsible management officials were not hindering the settlement of complaints in the
Postal Service’s alternative dispute resolution program.4

The Postal Service’s managing counsel for Employment and Labor Law told us their
settlement policy was consistent with Equal Employment Opportunity Commission
Management Directive 110 because the language in the directive regarding responsible
management official settlement authority was “guidance” only; the language was
applicable only to settlements reached in an alternative dispute resolution process; and
local Postal Service policy was to require higher-level approval for all monetary
settlements. In addition, the Postal Service’s former Equal Employment Opportunity
Compliance and Appeals manager told us most Equal Employment Opportunity
settlements involve very small or no monetary payouts, and restricting responsible
management officials from agreeing to such settlements would hinder the officials from
resolving matters as quickly as possible, thus seriously interfering with the settlement
process.




3
  Responsible management officials (RMO) are the agency officials alleged to have discriminated against the
complainant.
4
  The Postal Service alternative dispute resolution program, Resolve Employment Disputes Reach Equitable
Solutions Swiftly, provides an informal and speedy alternative to the traditional Equal Employment Opportunity
resolution process.




                                                          3
Postal Service’s December 2000 Equal                                         HM-AR-04-003
 Employment Opportunity Settlement Policy



Corrective Action

The Postal Service’s managing counsel for Employment and Labor Law sent a letter
on July 30, 2003, to the Equal Employment Opportunity Commission’s Office of
Legal Counsel advising the Postal Service policy was “entirely consistent with the
requirements of Equal Employment Opportunity Commission Management
Directive 110.” The managing counsel’s letter stated the language regarding
responsible management officials was only guidance and there was no requirement the
Postal Service follow it, but that “generally, as a matter of local policy and practice,
supervisors (whether or not RMOs) . . . are required to obtain approval for monetary
settlements.” She also stated the Postal Service’s alternative dispute resolution
program was successful and that published independent research stated “postal
employees consistently rate [the program] at the highest levels of satisfaction in terms
of fairness, their control over the process, and the treatment they receive.”

According to the Postal Service’s managing counsel, in response to her July 2003 letter,
the Equal Employment Opportunity Commission’s Office of Legal Counsel called her on
October 15, 2003, and advised her they would not be officially responding in writing to
her letter. She said the legal counsel told her the original rationale for the Equal
Employment Opportunity Commission Management Directive 110 language was a
concern complainants would be intimidated by having to meet face-to-face with the
responsible management official. He also told her the Equal Employment Opportunity
Commission was concerned responsible management officials might block settlements
because they look like admissions of wrongdoing. He further stated, however, these
concerns did not appear to be true with the Postal Service’s alternative dispute
resolution program. Therefore, the Equal Employment Opportunity Commission would
not suggest any changes to the Postal Service’s alternative dispute resolution
settlement policy.

As a result of the discussions between the Postal Service’s managing counsel, Equal
Employment Opportunity Commission’s legal counsel, and the OIG, we believe the
inconsistency with the Postal Services’ settlement policy and the Equal Employment
Opportunity Commission’s policies and procedures, has been addressed and there will
be no recommended change to the Postal Service’s policy.

Management’s Comments

Management stated it found the report to be accurate, and had no further comments or
information to add. Management’s comments, in their entirety, are included in the
appendix of this report.




                                            4
Postal Service’s December 2000 Equal                                         HM-AR-04-003
 Employment Opportunity Settlement Policy


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Chris Nicoloff, director, Human
Capital, at (214) 775-9114 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Patrick R. Donahoe
    Patricia M. Richter
    Eric J. Scharf
    Susan M. Duchek




                                            5
Postal Service’s December 2000 Equal                 HM-AR-04-003
 Employment Opportunity Settlement Policy


                   APPENDIX. MANAGEMENT’S COMMENTS




                                            6
